                        United States Department of the Interior

                                         Office of Inspector General
                                              Western Region
                                                  Federal Building
                                           2800 Cottage Way, Suite E-2712
                                              Sacramento, California 95825


                                                                  Report No. P-VS-NPS-0002-2006
                                                                                December 1, 2006

Memorandum

To:           Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)
              Director, National Park Service

From:         Michael P. Colombo
              Regional Audit Manager

Subject:      Verification Review of Four Recommendations from our December 2003 Audit
              Report Concession Management and Fee Collection Operations, St. Croix
              National Park, National Park Service (No. V-IN-NPS-0004-2003-A)

         The Office of Inspector General (OIG) has completed a verification review of the four
recommendations presented in the subject report. The objective of the review was to determine
whether the recommendations were implemented, as reported to the OIG by the National Park
Service (NPS) in its November 14, 2003 response to the draft of the subject report.

Background

          Our December 2003 audit report Concession Management and Fee Collection
Operations, St. Croix National Park, National Park Service (No. V-IN-NPS-0004-2003-A) made
four recommendations to the Superintendent of St. Croix National Park (Park) relating to
concession management and fee collections. In its November 14, 2003 response, NPS concurred
with all four recommendations. Based on this response, we considered all recommendations to
be resolved and implemented.

Scope and Methodology

         The scope of this review was limited to determining whether NPS took adequate action
to implement the recommendations. To accomplish our objective, we interviewed Park
personnel and gathered supporting documentation for the actions taken to implement the
recommendations.

         We did not perform any site visits or conduct any detailed audit fieldwork to determine
whether the underlying deficiencies that were initially identified have been corrected. As a
result, this review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

                                       Results of Review

          We found that NPS implemented Recommendations 2, 3, and 4 but did not take
sufficient action to fully implement Recommendation 1. The status of the recommendations is
summarized in the Appendix.

Recommendation 1: “Appoint an employee of the St. Croix National Park to be responsible
for oversight of the concession management operations. This individual should ensure that
concessionaire files contain all required documentation, the amount of franchise fee
payments received from concessionaires is fully supported and accurately represents 2
percent of concessionaires’ gross receipts, and deposits of franchise fee collections are made
to the Federal Reserve Bank in a timely manner.”

        In its November 14, 2003 response, NPS stated that the Park Superintendent had taken
over responsibility of oversight of the concession management operation and that the Park
intended to hire a concession management specialist to eventually assume this responsibility.
We found that the Superintendent had assumed responsibility for oversight of the concession
operations on an interim basis and that the Park was in the process of hiring a concession
management specialist. We also found, however, that Park oversight of concession operations
continued to be inadequate.

        Our December 2003 report stated that the Park did not ensure that concessionaire files
were complete or that franchise fee collections were deposited timely. We found that the Park
deposited fees timely, but did not ensure that concessionaire files contained all essential
documents. Specifically, five of the six concessionaire files lacked at least one of the following
essential documents: (1) support for franchise fee payments, (2) annual financial reports,
(3) vessel certificate of inspection, (4) marine certification of liability insurance, and (5) crew-
member certification.

        Our review of franchise fees paid for April 2006 to May 2006 also revealed that the Park
did not assess late fees on a concessionaire, Llewellyn’s Charters, who failed to submit franchise
fee payments on time. In addition, the same concessionaire did not submit gross receipts
information to enable the Park to verify whether franchise fees were accurately computed. As a
result, we concluded that NPS had not taken sufficient action to implement this recommendation
and that it should be classified as not implemented.

Recommendation 2: “Develop and implement formal policies and procedures to ensure
that adequate internal controls exist over the collection and deposit of parking fees. These
controls should include procedures to limit the authority to issue “non-paying” tickets to
specifically designated officials, require daily reconciliations of cash collections to the cash
register reports and the used parking tickets, and require the retention of used parking
tickets until any reconciliation discrepancies have been reviewed and satisfactorily
explained. ”


                                                  2
        In its November 14, 2003 response, NPS stated that it was developing formal written
policies and procedures to ensure adequate internal controls over the collection and deposit of
parking fees.

        We obtained a copy of the Park’s Fee Collection Standard Operating Procedures and
found that the procedures were consistent with the corrective actions outlined in NPS’s
November 14, 2003 response. The procedures limited the authority to issue non-paying tickets
to specifically designated officials. They also required reconciling cash collections to cash
register reports and used parking tickets and retaining used parking tickets. Based on the actions
taken by NPS, we concluded that Recommendation 2 has been resolved and implemented.

Recommendation 3: “Direct the Fee Collection Supervisor and other collection personnel
to comply with the collection and deposit requirements contained in the Fee Collection
Guidelines for entrance fees.”

        In its November 14, 2003 response, NPS stated that fee collectors were advised of the
collection and deposit requirements at weekly meetings.

        NPS could not provide us with documents to support its statement that it advised fee
collection staff to comply with collection and deposit requirements. However, our review of
deposits for the 12-month period, July 2005 to June 2006, showed that fee collection staff were
following guidelines and making deposits in a timely manner. Accordingly, we concluded
Recommendation 3 has been resolved and implemented.

Recommendation 4: “Address the problems related to the accuracy of the internal reports
generated by the cash registers used for parking lot and entrance fees, either by having the
cash registers reprogrammed to correct the problems or by acquiring new cash registers.”

        In its November 14, 2003 response, NPS stated that the Park purchased a new cash
register and that the manufacturer’s representative provided training to fee collection staff.

        We confirmed that the Park addressed the problems related to the accuracy of the internal
reports generated by the cash register. The Park purchased a new cash register for the entrance
station, and our comparison of cashier-transaction reports and cash register-generated reports
from June 13, 2006, to June 28, 2006, revealed no discrepancies.

        The Park did not purchase a new cash register for the parking lot. However, the Park
took the necessary steps to ensure the accuracy of parking collections by comparing journal
tapes, daily cash register reports, and cashier-transaction reports prior to making a deposit. Our
comparison of these reports from July 16, 2005, to July 21, 2005, revealed no discrepancies.
Accordingly, we concluded Recommendation 4 has been resolved and implemented.

Conclusion

        We informed NPS officials of the results of this review at an exit conference on
September 8, 2006. The officials concurred with all of our findings. NPS should provide the



                                                 3
Office of Financial Management with information on the actions it will perform to implement
Recommendation 1 by January 5, 2007.

Responding to the Report

         We are referring Recommendation 1 to the Office of Financial Management for
tracking of implementation and request that we be kept informed of the actions to be taken for
this recommendation.

         If you have any questions about this report, please contact me at (916) 978-5653.

cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
      Management, Office of the Assistant Secretary for Policy, Management and Budget
    Audit Liaison Officer, Department of the Interior
    Audit Liaison Officer, Assistant Secretary for Fish and Wildlife and Parks
    Audit Liaison Officer, National Park Service




                                                4
                                                             Appendix


   STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS




Recommendations          Status             Action Required

        1         Not Implemented   We are referring the
                                    recommendation to the Office of
                                    Financial Management, Office of
                                    Policy, Management and Budget,
                                    for tracking of implementation.
                                    The Park’s Superintendent should
                                    provide a plan identifying actions
                                    to be taken, target dates for
                                    implementation, and titles of
                                    officials responsible for
                                    implementation.
        2         Resolved          No further action required.
                  and Implemented
        3         Resolved          No further action required.
                  and Implemented
        4         Resolved          No further action required.
                  and Implemented




                            5
